OFFICE OF INSPECTOR GENERAL

   Management Information Report

 Financial Impact of Injury Settlements Awarding
Service Months to Qualify Railroad Employees for
         Occupational Disability Benefits


              Report No. 14-08
               July 18, 2014




  RAILROAD RETIREMENT BOARD
                                          EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted this review to determine the financial impact of injury settlements that
awarded service months to qualify railroad employees for occupational disability
benefits. Although limitations in agency systems and a lack of documentation did not
allow us to identify every applicable case, we determined that at least 28 current
occupational disability annuitants who purchased their service eligibility through injury
settlements will cost the Railroad Retirement Act (RRA) trust funds at least $11.9 million
from the start of their annuity until they reach their early retirement age. 1, 2 It is the
opinion of the OIG that the impact on the trust funds could potentially be as much as
$2.2 billion if all the annuitants who barely qualified for an occupational disability had
purchased some of the qualifying service months through an injury settlement. See the
Appendix on pages 6 through 8 for the methodology and results of our data analysis.

Findings

Current law allows for creditable service months to be obtained through a personal
injury award or settlement that allocates a portion of the damages as lost wages for a
specific period following the date of injury. 3 This allocation is referenced as “pay for
time lost.” This provision of the law essentially allows railroad employees to buy an
annuity from the RRB as part of their injury settlement with their railroad employer. The
OIG’s concern is that while RRB is not a party to this settlement, the agency may be
obligated to pay an annuity to the employee as a result of the settlement.

Also under current law, there are circumstances where pay for time lost, allocated for
service months, may be fully creditable under the RRA, but taxable only to a limited
extent, or not taxable at all. 4 Therefore, the OIG is concerned that annuities can be
purchased at a discount when all of the compensation is creditable, but not all of it is
taxable.

The RRB is led by a three-member board (the Board). The Board’s three members are
appointed by the President of the United States, with the advice and consent of the
Senate. The Board exercises joint responsibility over the operation of the agency. The
Board serves as a liaison with Congress and can seek legislative changes, when
necessary.




1
  The occupational disability annuitants identified were in current pay status as of February 2014.
2
  The identification was limited to individuals who had an open settlement related debt with the RRB in 2008 or later
because debts closed prior to 2008 had been purged from the agency’s receivable system. See the Appendix on
page 6 for details.
3
  45 United States Code (U.S.C.) 231 (h)(2).
4
  26 U.S.C. Chapter 22.

                                                           i
On February 10, 2014, under the statutory provision of Section 5(d) of the Inspector
General Act of 1978, as amended, the OIG issued a Seven-Day Letter to the Chairman
of the Board to alert him of multiple concerns with the occupational disability program
and the RRB’s administration of the program. 5 The ability to essentially purchase
qualifying service, while allowable by law, is another troubling aspect of the occupational
disability program.

Recommendations

We recommend that the Board seek legislative changes to:


     1. disallow service months credited as pay for time lost through an injury settlement
        when determining service eligibility for an occupational disability; and
     2. tax all creditable compensation.




5
    5 U.S.C. App. 3, § 5(d).

                                              ii
                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION


 Background ................................................................................................................. 1

 Objective ..................................................................................................................... 2

 Scope .......................................................................................................................... 2

 Methodology ............................................................................................................... 3


RESULTS OF REVIEW


 Service Months Awarded through Injury Settlements ................................................. 4

 Recommendation ........................................................................................................ 4

 Taxation of Creditable Compensation ......................................................................... 5

 Recommendation ........................................................................................................ 5


APPENDIX


 Data Analysis Methodology and Results..................................................................... 6




                                                              iii
                                                INTRODUCTION

This management information report presents the results of the Office of Inspector
General’s (OIG) review to determine the financial impact of injury settlements that awarded
service months to qualify railroad employees for occupational disability benefits.

Background

The Railroad Retirement Board (RRB) is an independent agency in the executive branch
of the Federal government. The RRB administers comprehensive retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their families
under the Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act.
These programs provide income protection during old age and in the event of disability,
death, temporary unemployment, or sickness.

The RRB is led by a three-member board (the Board). The Board’s three members are
appointed by the President of the United States, with the advice and consent of the
Senate. The Board exercises joint responsibility over the operation of the agency. The
Board serves as a liaison with Congress and can seek legislative changes, when
necessary.

The RRA provides for annuities to railroad employees, spouses, and survivors. The RRA
provides for the payment of an occupational disability annuity if an employee becomes
permanently unable to perform his or her regular railroad occupation, due to illness or
injury. To become eligible for an occupational disability annuity, an employee must have
completed 10 years of service (120 service months) and attained age 60, or may qualify
with 20 years of service (240 service months) regardless of age.

In some cases, an individual may be injured on the job or become ill and not have the
necessary service months to qualify for an occupational disability annuity. 6 The RRA
allows for qualifying service months to be credited to an employee as part of a settlement
with the railroad employer. For example, one employee had 216 service months when he
stopped physically working for his railroad employer in January 2009. As part of his injury
settlement, the railroad reported service months to the RRB for February 2009 through
January 2011 giving him the 240 service months that he needed to qualify for an
occupational disability. In another case, the settlement was used to award service for four
months in 2006, one month in 2008, three months in 2009, twelve months in 2010, and six
months in 2011 in order to qualify the individual for an occupational disability.




6
 Our data analysis of annuitants selected those individuals with 120-125 or 240-245 service months; they would “barely
qualify” for occupational disability. See the Appendix on page 6 for details of selection.


                                                          1
The allocation (or “purchase”) of service months as part of a personal injury award or
settlement is called “pay for time lost.” The payment received by railroad employees under
pay for time lost is taxable in the calendar year in which payment is made. Under the
Railroad Retirement Tax Act, the taxes are paid for the calendar year in which the
settlement is paid. 7 The RRB credits the service to the period or periods that the wages
were lost.

In fiscal year 2013, the RRB paid about $2.4 billion in disability benefits to approximately
81,000 annuitants. Some of these disability benefit payments included amounts paid to
individuals who are receiving occupational disabilities.
Section 5(d) of the Inspector General Act of 1978, as amended, requires an Inspector
General to immediately report to the agency head “particularly serious or flagrant
problems, abuses, or deficiencies relating to the administration of programs and operations
of [the agency].” 8 This section also requires the agency head to transmit the Inspector
General’s concerns, along with the agency head’s comments, to Congress within seven
calendar days (Seven-Day Letter).

On February 10, 2014, the OIG issued a Seven-Day Letter to the Chairman of the Board to
alert him of multiple concerns with the occupational disability program and the RRB’s
administration of the program. The ability to essentially purchase qualifying service is just
another troubling aspect of the occupational disability program.

In light of the concerns identified in the Seven-Day Letter, the Inspector General requested
our Office of Audit to conduct this review. This review also supports the agency’s goal of
safeguarding customers' trust funds through prudent stewardship.

Objective

The objective of this review was to determine the potential financial impact to the RRA
trust funds when occupational disability annuitants qualified for their annuities based on
service month credits obtained as part of an injury settlement with the railroad employer.

Scope

The scope of this review included annuitants listed on the agency’s February 2014 Master
Benefit File (MBF) who were in current pay status and receiving occupational disability
benefit payments. In the Appendix, on page 7, we explain the methodology used to
identify the annuitants who were awarded service months through a settlement in order to
qualify for an occupational disability annuity.




7
    26 U.S.C. Chapter 22.
8
    5 U.S.C. App. 3, § 5(d).


                                              2
Methodology

To accomplish our objective, we:

•   reviewed agency policies and procedures to obtain an understanding of the pay for
    time lost process when an on the job injury settlement is involved;
•   reviewed legislation and regulations regarding pay for time lost; and
•   analyzed an extract of the occupational disability cases involving an on the job injury
    settlement.

See the Appendix on pages 6 through 8 for the methodology and results of our data
analysis.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
March 2014 through June 2014.




                                              3
                                           RESULTS OF REVIEW

Although limitations in agency systems and a lack of documentation did not allow us to
identify every applicable case, we determined that at least 28 current occupational
disability annuitants who purchased their service eligibility through injury settlements will
cost the RRA trust funds at least $11.9 million from the start of their annuity until they
reach their early retirement age. 9, 10 It is the opinion of the OIG that the impact on the trust
funds could potentially be as much as $2.2 billion if all the annuitants who barely qualified
for an occupational disability had purchased some of the qualifying service months through
an injury settlement.

In this report, we concluded that the financial impact to the RRA trust funds could be
minimized if the Board seeks legislative changes to disallow the allocation of service
months as part of injury settlements to qualify for occupational disabilities and to tax all
creditable compensation.

See the Appendix on pages 6 through 8 for the methodology and results of our data
analysis.

Service Months Awarded through Injury Settlements

The RRB awards service months based on the current law that allows some of the
creditable service necessary to qualify for an occupational disability to be obtained through
a personal injury award or settlement. 11 These settlements may allocate a portion of the
damages as lost wages for a specific period following the date of injury. This allocation is
referred to as pay for time lost. This provision of the RRA essentially allows railroad
employees to purchase an annuity from the RRB as part of their injury settlement with their
railroad employer. The RRB is not a party to this settlement but may be obligated to pay
an annuity to the employee as a result of the settlement.

The practice of allowing an individual to qualify for an occupational disability based on
service months awarded as part of an injury settlement is costly to the RRA trust funds.

Recommendation

The Board should seek legislative changes to:

     1. disallow service months credited as pay for time lost through an injury settlement
        when determining service eligibility for an occupational disability.




9
  The occupational disability annuitants identified were in current pay status as of February 2014.
10
   The identification was limited to individuals who had an open settlement related debt with the RRB in 2008 or later
because debts closed prior to 2008 had been purged from the agency’s receivable system. See the Appendix on page 6
for details.
11
   45 United States Code (U.S.C.) 231 (h)(2).


                                                          4
Taxation of Creditable Compensation

Current law not only allows the purchase of an annuity, it sometimes allows this purchase
at a discount because the maximum taxable amount is applied to the year paid and not to
the years that the wages were lost. For example, if an employee received $300,000 from
an injury settlement in 2014 for wages lost in 2011 through 2013, the employer and
employee would pay combined taxes of approximately $32,700 based on tax rates and
maximum taxable amounts in 2014. If the $300,000 was taxed over the three years of lost
wages, the combined taxes would have been approximately $86,000 resulting in the RRB
Trust Funds losing over $53,000 for a single individual.

Recommendation

The Board should seek legislative changes to:

   2. tax all creditable compensation.




                                            5
                                                                                     Appendix

                     DATA ANALYSIS METHODOLOGY AND RESULTS


This appendix presents the methodology and results for:

   •   our data analysis for the OIG opinion on the maximum potential impact if all
       annuitants who barely qualified for an occupational disability had purchased some
       of the qualifying service months through an injury settlement, and
   •   our data analysis to identify annuitants who qualified for occupational disabilities as
       a result of obtaining credited service through a personal injury award or settlement.

Data Analysis Objective and Scope

Our objective was to quantify the maximum potential impact to the RRA trust funds for all
occupational disability annuitants that barely qualified for occupational disability annuities
and to identify employee annuitants that qualified for a disability annuity as a result of
purchasing service months as part of a settlement with their railroad employer. Our scope
was limited to occupational disability annuities in current pay status in the agency’s
February 2014 MBF where the employee had 120 to 125 or 240 to 245 months of service.

Methodology for Determining the Maximum Potential Impact

To determine the maximum potential impact, we:

   •   Obtained a copy of the February 2014 MBF which had 1,347,292 records.

   •   Extracted the records for occupational disability annuitants who were in current pay
       status from the MBF, resulting in 59,519 records.

   •   Created a table of occupational disability annuitants in current pay status who had
       120 to 125 months of service, and attained age 60. These annuitants would barely
       qualify for occupational disability. The resulting table had 71 records.

   •   Created a second table of occupational disability annuitants in current pay status
       who had 240 to 245 months of service. These annuitants would barely qualify for
       occupational disability. The resulting table had 5,782 records.

   •   Combined the table of annuitants with 120 to 125 service months and the table of
       annuitants with 240 to 245 service months to obtain all annuitants who had barely
       enough service month credits to qualify for an occupational disability. The OIG
       considers each of these 5,853 annuitants as at risk of having purchased their
       annuity through an injury settlement.

   •   Determined the approximate number of months that the RRB paid each of the
       annuitants from the annuity beginning date (ABD) until the annuitant reached the
       early retirement age of 62.


                                              6
                                                                                                         Appendix

     •   Multiplied the number of months by the benefit amount on the February 2014 MBF
         to estimate the amount paid or to be paid to each annuitant from their annuity
         beginning date until age 62.

     •   Totaled the amounts paid or to be paid for each annuitant that was under age 62 on
         their annuity beginning date.


Results of Review for Determining the Maximum Potential Impact

Our review into the maximum potential impact resulted in an estimate of $2.2 billion for all
occupational disability annuitants who barely qualified.

Methodology Related to Identifying Actual Cases of Purchased Annuities

To identify employees who qualified for occupational disabilities as a result of obtaining
credited service through a personal injury award or settlement, we:

     •   Obtained accounts receivable data coded as sickness benefits recoverable due to
         an award or settlement. 12 The resulting table had 16,060 records.

     •   Matched the combined table produced to calculate maximum potential impact to the
         table of accounts receivable data. This match produced a list of annuitants who
         potentially obtained service months as part of a settlement. The resulting match
         had 168 unique records.

     •   Eliminated 107 annuitant records with codes indicating that they would have
         qualified for a disability according to Social Security standards and, therefore, they
         did not need the additional service months to qualify for the occupational disability.
         The resulting table had 61 records.

For the 61 records, we reviewed the claims information in agency systems for each of the
61 annuitants. In the claims information, we looked for documentation of service month
credit adjustments to determine if any adjustments were the result of a settlement between
the railroad employee and their railroad employer. 13

We determined that 28 annuitants had service months credited as a result of a settlement
between the employee and their railroad employer. These service month credits gave
them the qualifying service to meet the eligibility requirements for an occupational
disability.




12
  Accounts receivable closed prior to 2008 had been purged from the agency’s system.
13
  Documentation showing the allocation of service months based on an injury settlement was not always available in
agency systems.


                                                          7
                                                                                                                 Appendix

For each of the 28 annuitants, we estimated the amount they will cost the RRA trust funds
from the ABD to early retirement at age 62. 14 In order to do this, we first found the benefit
amount on the February 2014 MBF for each case. Then we determined the number of
months for each of the 28 from the ABD to the age 62 attainment date, which would be the
number of months each annuitant would receive occupational disability benefits. Finally,
we multiplied the February 2014 benefit amount times the number of months receiving
occupational disability benefits to calculate an estimate of total benefits.

Results of Review for Identifying Actual Cases

We estimated that the 28 current occupational disability annuitants, who purchased their
service eligibility through an injury settlement since 2008, will cost the RRA trust funds at
least $11.9 million. 15 See the table on page 9 for the details of our calculations for the 28
cases.




14
  Each of the individuals had enough railroad service to qualify for the early retirement at age 62, regardless of disability.
15
  The identification was limited to individuals who had an open settlement related debt with the RRB in 2008 or later
because debts closed prior to 2008 had been purged from the agency’s receivable system.


                                                              8
                                                                                                            Appendix

Financial Impact of Injury Settlements Awarding Service Months to Qualify Railroad
Employees for Occupational Disability Benefits


                                                                               Number of
                   Annuity
                                                             Age 62             Months              Estimated Total
  Case           Amount on              Annuity
                                                           Attainment          Receiving              of Benefits
 Number         February 2014          Begin Date
                                                              Date            Occupational             Received
                    MBF
                                                                               Disability16

       1             $   2,589          07/01/2009         03/05/2020                       129           $ 333,981
       2             $   2,840          08/15/2010         04/11/2026                       189           $ 536,760
       3             $   2,523          02/01/2009         08/19/2032                       284           $ 716,532
       4             $   2,362          07/01/2011         12/19/2029                       223           $ 526,726
       5             $   2,183          09/02/2007         01/01/2024                       197           $ 430,051
       6             $   2,757          05/01/2010         12/02/2023                       164           $ 452,148
       7             $   1,735          02/01/2008         10/03/2016                       105           $ 182,175
       8             $   3,161          12/01/2011         10/19/2028                       204           $ 644,844
       9             $   3,029          04/01/2013         04/13/2021                        97           $ 293,813
      10             $   2,407          05/01/2011         04/24/2027                       193           $ 464,551
      11             $   1,576          01/01/2008         11/14/2008                        11           $ 17,336
      12             $   2,581          05/01/2010         06/22/2028                       219           $ 565,239
      13             $   2,817          06/01/2010         12/17/2028                       224           $ 631,008
      14             $   3,124          06/01/2011         03/10/2029                       214           $ 668,536
      15             $   2,696          01/15/2013         03/07/2014                        15           $ 40,440
      16             $   2,786          08/01/2010         01/01/2020                       114           $ 317,604
      17             $   2,740          09/01/2007         02/20/2023                       187           $ 512,380
      18             $   2,540          12/02/2006         03/02/2016                       112           $ 284,480
      19             $   2,701          02/01/2011         06/27/2018                        90           $ 243,090
      20             $   2,462          04/01/2012         03/28/2020                        97           $ 238,814
      21             $   2,734          10/01/2008         06/22/2019                       130           $ 355,420
      22             $   2,335          02/01/2011         11/24/2016                        71           $ 165,785
      23             $   2,885          11/01/2008         08/22/2026                       215           $ 620,275
      24             $   2,821          08/01/2010         04/22/2032                       262           $ 739,102
      25             $   2,018          09/01/2010         06/10/2022                       142           $ 286,556
      26             $   2,536          11/01/2012         08/21/2034                       263           $ 666,968
      27             $   2,235          11/01/2012         12/02/2027                       182           $ 406,770
      28             $   2,900          01/01/2011         05/12/2027                       197           $ 571,300
     Total                                                                                              $ 11,912,684




16
  This column (column 5) contains the number of months that annuitants receive occupational disability benefits prior to
the date of age 62 attainment.



                                                           9
                                                                                                         Appendix

Overall Conclusion

Although limitations in agency systems and a lack of documentation did not allow us to
identify every applicable case, we concluded that at least 28 current occupational disability
annuitants, who purchased their service eligibility through an injury settlement since 2008,
will cost the RRA trust funds at least $11.9 million. 17 It is the opinion of the OIG that the
impact on the trust funds could potentially be as much as $2.2 billion if all the occupational
disability annuitants who barely qualified were considered.




17
  The identification was limited to individuals who had an open settlement related debt with the RRB in 2008 or later
because debts closed prior to 2008 had been purged from the agency’s receivable system. See footnote 12 on page 7.


                                                         10
